FY 2006 OFFICE OF INSPECTOR GENERAL
FISMA REVIEW OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A060123/O/T/F06018

          September 8, 2006
                                     FY 2006 OFFICE OF INSPECTOR GENERAL
                                     FISMA REVIEW OF GSA’S INFORMATION
                                       TECHNOLOGY SECURITY PROGRAM
                                       REPORT NUMBER A060123/O/T/F06018

                                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................. i

INTRODUCTION .......................................................................................................................... 1
   Objectives, Scope, and Methodology ......................................................................................... 1

RESULTS OF AUDIT.................................................................................................................... 3
   Standardized IT System Security Performance Goals and Measures Are Not In
   Place To Establish Accountability in GSA's IT Security Program............................................. 3
   Additions and Modifications to GSA's IT Security Policy and Procedures Are
   Needed To Provide Program Accountability.............................................................................. 6
   GSA Would Benefit From A More Proactive Approach for Addressing
   Emerging Risks........................................................................................................................... 8
RECOMMENDATIONS.............................................................................................................. 10

MANAGEMENT COMMENTS.................................................................................................. 11

INTERNAL CONTROLS ............................................................................................................ 11
                                                              APPENDICES

GSA, OFFICE OF INSPECTOR GENERAL RESPONSES TO THE OFFICE OF
MANAGEMENT AND BUDGET’S FISMA QUESTIONS..................................................... A-1

TEN SYSTEMS REVIEWED BY THE OFFICE OF INSPECTOR GENERAL IN
2006............................................................................................................................................. B-1

STATUS OF CONTRACTOR BACKGROUND INVESTIGATIONS FOR
TEN SYSTEMS.......................................................................................................................... C-1

GSA-CIO’S RESPONSE TO DRAFT AUDIT REPORT ......................................................... D-1

REPORT DISTRIBUTION .........................................................................................................E-1
                        FY 2006 OFFICE OF INSPECTOR GENERAL
                        FISMA REVIEW OF GSA’S INFORMATION
                          TECHNOLOGY SECURITY PROGRAM
                          REPORT NUMBER A060123/O/T/F06018

                                  EXECUTIVE SUMMARY

Purpose

The objective of this audit was to assess the effectiveness of the General Services
Administration's (GSA's) Information Technology (IT) Security Program and practices for select
systems in meeting Federal Information Security Management Act of 2002 (FISMA)
requirements. Our response to specific questions outlined in the Office of Management and
Budget (OMB) Fiscal Year (FY) 2006 reporting guidance for FISMA is included in Appendix A.
This audit report is provided for inclusion as an appendix in GSA’s FY 2006 FISMA report and
FY 2008 budget submission to the OMB.

Background

FISMA provides a framework for securing Federal information systems, including: (1) ensuring
the effectiveness of information security controls over information resources; (2) development
and maintenance of minimum controls required to protect Federal information and information
systems; and (3) a mechanism for improved oversight of agency information security programs.
This audit report presents the results of the Inspector General’s FY 2006 independent evaluation
of the GSA agency-wide IT Security Program and controls for select systems as required by
FISMA. Results of prior audits of GSA's IT Security Program have been issued annually since
2001 and included recommendations to address program weaknesses in 2004 and 2005.

Results-in-Brief

Efforts to better secure GSA’s systems continue, but system security officials do not consistently
ensure effective implementation of GSA’s IT Security Policy due, in part, to a lack of
accountability and the need for program policies and procedures for measuring individual
performance. In our vulnerability scanning of systems reviewed for FISMA, sample systems
have shown improvements as evidenced by a decrease in the number of critical vulnerabilities
we identified from 140 in 2005 to 19 in 2006. While the Senior Agency Information Security
Officer (SAISO) has taken steps over the last year to address previously reported weaknesses, we
continue to find instances where Information System Security Officers (ISSOs) and Information
System Security Managers (ISSMs) did not ensure that systems were properly secured. We
concluded that effective implementation of GSA's IT Security Program at the system level is
dependent upon improved accountability for persons with key IT security responsibilities.
Further, there is a need for improved policy and procedures to establish standardized
performance goals and measures for associates and contractors performing ISSO and ISSM
responsibilities, since these individuals do not typically report directly to the Office of the GSA
Chief Information Officer (GSA-OCIO). Accountability in the IT Security Program also
depends on periodic assessments of performance goal accomplishment for each ISSO and ISSM,
and the results of those assessments being provided to the appropriate ISSO, ISSM, and
Authorizing Official (AO). Finally, an analysis of technical security controls for web
applications and Voice over Internet Protocol (VoIP) implementations found that GSA’s IT
                                                  i
Security Program would also benefit from a more proactive approach to addressing emerging IT
security risks. Appendix A contains our responses to specific FISMA questions, as requested by
OMB.

Recommendations

To strengthen GSA's IT Security Program and improve the security of information technology
assets, we recommend that the GSA, Chief Information Officer take actions to:

   1. Implement improved accountability for associates and contractors supporting GSA's IT
      Security Program by taking actions to:
      a. Engage the Administrator’s support for developing standardized performance goals
          and measures for Information System Security Officers and Information System
          Security Managers across GSA Service, Staff, and Regional Offices, with periodic
          assessments of performance by the Senior Agency Information System Officer for
          use in performance evaluations.
      b. Require that contracts and task orders for Information System Security Officer and
          Information System Security Manager services, in support of GSA systems, include
          performance requirements similar to goals and measures being established for GSA
          associates in these roles.
      c. Collaborate with the GSA Personnel Security Requirements Division to identify and
          implement procedures and controls that effectively ensure prompt initiation of
          contractor background investigations for individuals accessing GSA systems and
          data.

   2. Strengthen GSA's IT Security Policy and procedures in the following areas:
      a. Develop guidance and directives necessary to establish and monitor IT security
           performance goals and measures for Information System Security Officers and
           Information System Security Managers.
      b. Require Senior Agency Information Security Officer approval of Information
           System Security Officer and Information System Security Manager assignments.
      c. Add the roles of Contracting Officer and Contracting Officer’s Technical
           Representative as persons with IT security responsibilities, and clarify the
           responsibilities of systems security officials in the background investigation process.
      d. Segregate IT security roles and responsibilities by requiring that one individual
           cannot be both the Information System Security Officer and Information System
           Security Manager for a single system.
      e. Clarify the Contractor Operations section of the policy to require that task orders, as
           well as contracts, include appropriate security requirements.

   3. Ensure that the Information Technology Architecture Planning Committee, IT Security
      Subcommittee regularly takes actions to address risks with emerging technologies.

   4. Develop and implement technical/hardening guides for securing web applications and
      Voice over Internet Protocol.

Management Comments

The GSA-CIO concurred with the findings and recommendations outlined in this report.
                                            ii
                                             INTRODUCTION

The Federal Information Security Management Act of 2002 (FISMA) provides a framework for
securing Federal information systems including: (1) ensuring the effectiveness of information
security controls over information resources; (2) development and maintenance of minimum
controls required to protect Federal information and information systems; and (3) a mechanism
for improved oversight of agency information security programs. This audit report presents the
results of the Inspector General’s Fiscal Year (FY) 2006 independent evaluation of the General
Services Administration’s (GSA) agency-wide Information Technology (IT) Security Program
and controls for select systems, as required by FISMA. Results of prior audits of GSA's IT
Security Program have been issued annually since 2001 and included recommendations to
address program weaknesses in 2004 and 2005.


Objectives, Scope, and Methodology

The objective of this audit was to assess the effectiveness of GSA’s IT Security Program and
practices for select systems in meeting FISMA requirements. Our response to specific questions
outlined in the Office of Management and Budget (OMB) FY 2006 reporting guidance for
FISMA is included in Appendix A. This audit report is provided for inclusion as an appendix in
GSA’s FY 2006 FISMA report and FY 2008 budget submission to the OMB.

We met with Agency IT security officials in the GSA Office of the Chief Information Officer
(GSA-OCIO) and in Services, Staff Offices, and Regions (S/SO/R), including the GSA Senior
Agency Information Security Officer (SAISO), Information System Security Managers (ISSMs),
and Information System Security Officers (ISSOs) for select systems. In 2006, we reviewed
security controls for 10 systems across GSA, which included six components of larger systems,
to assess the comprehensiveness of the implementation of the Agency IT Security Program.
Appendix B lists the 10 systems reviewed as part of this audit. We reviewed GSA’s agency-
wide IT Security Policy1 and procedures, standards, and guidelines for implementing GSA’s IT
Security Program. To obtain information on commonly accepted IT security principles and
practices, we used the National Institute of Standards and Technology (NIST) Federal
Information Processing Standards Publications, and Special Publication 800 series security
guidelines. We also reviewed GSA’s annual financial statement audit report for FY 2005, and
the related management letter.

To assess the effectiveness of GSA’s IT Security Program implementation, we examined risk
assessments, system security plans, security assessment results, certification and accreditation
(C&A) letters, contingency plans, and Plans of Action and Milestones (POA&M) for each
system. In addition to reviewing the comprehensiveness of documentation, we evaluated
additional managerial, technical and operational controls including: vulnerability scanning,
database configuration testing, and reviews of environmental and physical security, background
investigations, and training. During our FISMA review, we performed a detailed analysis of one
web application, initiated a broader review of web application security to address input
validation, and issued an Alert Report in May 2006. Office of Inspector General (OIG) Alert


1
    GSA Order CIO P 2100.1C - GSA Information Technology Security Policy, February 17, 2006.
                                                        1
Reports are issued when significant, immediate internal audit concerns need to be conveyed to
agency management before the completion of an ongoing review.

In addition to FISMA, we reviewed other applicable regulations and policies, including: OMB
Circular A-130 Revised, Appendix III, Security of Federal Automated Information Resources,
November 2000; GSA Order CIO P 2100.1C - GSA Information Technology Security Policy,
February 17, 2006; GSA’s procedural guides on conducting risk assessments, C&A, incident
handling, and related technical hardening guides and standards, available on the GSA-OCIO’s IT
Security Intranet site; NIST Federal Information Processing Standards Publications, and 800
series Special Publications (SP); and Homeland Security Presidential Directive (HSPD) 12
“Policy for a Common Identification Standard for Federal Employees and Contractors,” August
27, 2004.

Audit work was performed between March 2006 and August 2006 in accordance with generally
accepted government auditing standards.




                                              2
                                     RESULTS OF AUDIT

Efforts to better secure GSA’s systems continue, but system security officials do not consistently
ensure effective implementation of GSA’s IT Security Policy due, in part, to a lack of
accountability and the need for program policies and procedures that measure individual
performance. In our vulnerability scanning of systems reviewed for FISMA, sample systems
have shown improvements as evidenced by a decrease in the number of critical vulnerabilities
we identified from 140 in 2005 to 19 in 2006. While the Senior Agency Information Security
Officer (SAISO) has taken steps over the last year to address previously reported weaknesses, we
continue to find instances where Information System Security Officers (ISSOs) and Information
System Security Managers (ISSMs) did not ensure that systems were properly secured. We
concluded that effective implementation of GSA's IT Security Program at the system level is
dependent upon improved accountability for persons with key IT security responsibilities.
Further, there is a need for improved policy and procedures to establish standardized
performance goals and measures for associates and contractors performing ISSO and ISSM
responsibilities, since these individuals do not typically report directly to the GSA Office of the
Chief Information Officer (GSA-OCIO). Accountability in the IT Security Program also
depends on periodic assessments of performance goal accomplishment for each ISSO and ISSM,
and the results of those assessments being provided to the appropriate ISSO, ISSM, and
Authorizing Official (AO). Finally, an analysis of technical security controls for web
applications and Voice over Internet Protocol (VoIP) implementations found that GSA’s IT
Security Program would also benefit from a more proactive approach to addressing emerging IT
security risks.

Appendix A contains our responses to specific FISMA questions, as requested by OMB. Our
responses include assessments of the security of contractor provided solutions and agency
systems, including components of larger major applications and general support systems.
Components of larger systems were selected, as noted in Appendix B, since it is important that
system owners ensure that all applications within defined system boundaries are secured. While
all systems reported having a current Certification and Accreditation (C&A), the process was not
implemented consistently for systems reviewed, where we identified incomplete risk
assessments, system security plans, and security assessments. Three systems did not have
properly tested contingency plans. Two systems operated for GSA by contractors were not
provided GSA's IT Security Policy and were not being effectively monitored to ensure
information was being protected. Background investigations were not requested for one of the
two systems.

Standardized IT System Security Performance Goals and Measures Are Not In Place To
Establish Accountability in GSA's IT Security Program

Weaknesses in several areas continue in GSA's IT Security Program without standardized IT
security performance goals and measures in place to establish accountability for system security
officials, despite improving program controls in the areas of vulnerability scanning and
continuous monitoring. Again this year, we identified weaknesses with implementation of the
C&A process, contractor background investigations, and contractor provided solutions, when IT
Security Program processes did not ensure that ISSOs and ISSMs fulfilled their defined roles.
                                              3
When assessing why we repeatedly find the same weaknesses, we determined that there was
little evidence of ISSOs and ISSMs, whether associates or contractors, being held accountable
for the security of their systems by Authorizing Officials or the GSA-OCIO. While the GSA-
CIO and the SAISO have IT security performance goals and measures, they have limited
influence over ISSOs and ISSMs under the supervision of Authorizing Officials in Service, Staff,
and Regional Offices responsible for carrying out system security directives.

Recurring findings in three risk areas demonstrate the effects of not having standardized IT
security performance goals and measures in place for individuals assigned system security
responsibilities in GSA's IT Security Program. For most of the systems we reviewed, the C&A
process was not being implemented consistently, background investigations were not always
being requested for contractors working with GSA systems, and security officials were not
providing adequate oversight of contractor provided solutions.

       Certification and Accreditation Process
       As reported in previous FISMA audits, the C&A process has not been consistently
       implemented across the Agency. In 2004, we reported that for the systems we reviewed
       the C&A process was not implemented consistently, not updated after major system
       changes, or not completed. We recommended strengthening policy and procedures to
       better manage risks by incorporating controls to ensure that C&A documentation,
       including risk assessments, security plans, and security plan testing and evaluations are
       current and complete. In 2005, we reported that the C&A process was not consistently
       implemented and recommended that the GSA-OCIO improve security over GSA’s data
       and IT assets by taking actions to increase oversight of the implementation of GSA’s IT
       Security Policy and procedures related to C&A. The GSA’s C&A process was revised to
       include oversight by GSA’s Office of the SAISO. The requirement for an IT security
       office review of C&A documents should strengthen the process over the next few years,
       but does not appropriately focus on accountability for system security officials. In 2006,
       we again found inconsistent implementation of the C&A process where we identified
       incomplete risk assessments, system security plans, security assessments, and
       contingency plans for systems reviewed. C&A documentation for a general support
       system was not updated to address additional functionality of the reviewed component.
       A contractor provided system did not follow GSA procedural guides when developing
       C&A documentation. ISSOs and ISSMs should have detected and initiated correction of
       the deficiencies identified in C&A documentation.

       Contractor Background Investigations
       Risks resulting from the lack of background investigations on contractors supporting
       GSA systems have been consistently identified since 2003, when we reported this issue
       as a significant deficiency. In 2004, we again reported the issue, recognizing a
       significant backlog in completing required investigations. We recommended developing
       compensating controls to reduce risks. In 2005, we reported that GSA systems and
       sensitive Privacy Act Data were at risk of being compromised due to incomplete
       background investigations and again recommended the identification and adoption of
       compensating controls. A requirement was added for a completed FBI National Criminal
       History Check (Fingerprint Check) before initial access to systems is granted. GSA
       further reduced risks by completing over 1,600 Fingerprint Checks and 568 contractor
       background investigations of varying types between October 2005 and July 2006.
       Despite the Agency's efforts, we identified multiple systems where background
                                               4
       investigations on contractors supporting GSA systems were not requested during our
       2006 reviews.       Independent assessments of ten systems found that background
       investigations were not completed for approximately two thirds of the identified contractors
       allowed access to these systems or data. The GSA IT Security Policy places responsibility
       on the ISSO to assist the Data Owner and Authorizing Official in ensuring users have
       required background investigations. Although the GSA-OCIO has taken action on our
       recommendations, there are no apparent consequences for non-compliance on the part of
       system security officials. Appendix C lists the status of background investigations for
       contractors supporting the ten systems reviewed and the types of checks performed. Data
       Owners and ISSOs for eight of the nine systems utilizing contractor support personnel
       had not ensured that all required background investigations were completed. OMB
       Circular A-130, Appendix III requires that individuals in roles with the ability to bypass
       significant technical and operational controls be screened prior to performing those roles.
       We identified systems where contractors were performing key system administrator
       duties before the completion of their background investigations. One ISSO, whose
       primary responsibility is not security, incorrectly believed that it was not necessary to
       conduct background investigations for personnel supporting a contractor provided system
       on behalf of a GSA program. Under another ISSO, whose primary function is system
       Team Leader, a less rigorous background investigation than required was requested for
       contractor support personnel.

       Contractor Provided Solutions Not Secured
       GSA's IT Security Program has not been effective in consistently enforcing policy and
       procedures for contractor owned and operated systems supporting GSA programs and
       maintaining GSA data. In 2004 and 2005, we reported on contractor provided solutions
       that were not compliant with the Agency IT Security Policy and procedures required by
       their contracts with GSA. In 2006, as in prior years, contractors providing solutions for
       GSA were not provided with GSA’s IT Security Policy and procedures by the ISSO,
       were not adequately monitored for compliance with the Agency IT Security Policy, and
       were unaware of several vulnerabilities detected during our review. These findings
       confirm that efforts to implement prior audit recommendations did not consistently
       improve security for contractor provided solutions. According to the GSA IT Security
       Policy, it is the responsibility of system security officials, including the ISSO, to ensure
       the system is operated, used, maintained, and disposed of in accordance with internal
       security policies and procedures. However, based on our reviews, there has been a
       consistent lack of accountability to ensure that ISSOs and other officials oversee
       contractor provided solutions.

The three identified risk areas demonstrate the need to modify the IT Security Program in a way
that will help Authorizing Officials ensure the security of their systems, accomplish GSA's
FISMA goals, and effectively implement GSA's IT Security Policy. Evaluating performance of
ISSOs and ISSMs based on standardized IT security goals and measures, as part of individual
performance assessments, would effectively promote implementation and improve
accountability. We believe that the GSA-CIO should engage the Administrator’s support for
developing standardized performance goals and measures for ISSOs and ISSMs across GSA
Service, Staff, and Regional Offices, with periodic assessments of performance based on
established measures. The GSA-OCIO should also collaborate with the Office of the Chief
Acquisition Officer to develop contract and task order performance requirements when procuring
ISSO and ISSM services for GSA systems, similar to the performance goals and measures used
                                                5
for GSA associates in these roles. Making IT security goals and measures a part of the
individual performance appraisal process would be the most effective approach to providing
accountability, reducing recurring risks, and improving the security of GSA's IT assets.


Additions and Modifications to GSA's IT Security Policy and Procedures Are Needed To
Provide Program Accountability

In order to provide accountability and address recurring weaknesses with implementing GSA's
IT Security Program, we identified opportunities for additions and modifications to GSA’s IT
Security Policy and procedures in five areas to assist system security officials in
comprehensively addressing system risk, fulfilling their responsibilities, and maintaining
effective internal controls. Additions and modifications to policies and procedures would assist
the SAISO and Authorizing Officials in evaluating the effectiveness of ISSOs and ISSMs
supporting GSA's systems.

           Guidance as the Basis for Performance Goals and Measures
           The GSA IT Security Policy directs system security officials to a variety of procedural
           guides, NIST publications, and best practices, but the Agency has not developed an ISSO
           procedural guide or an ISSM procedural guide for implementing role-specific security
           responsibilities. This lack of specific guidance contributes to weaknesses identified with
           the C&A process, background investigations, and contractor provided solutions, in
           instances where ISSOs and ISSMs did not consistently fulfill their roles as defined in
           GSA's IT Security Policy. Procedural guidance should delineate the specific processes
           for completing assigned ISSO and ISSM responsibilities, establish clear performance
           goals and measures, and provide a basis for evaluations. When contractors are providing
           ISSO and ISSM services, the GSA-OCIO should also require that contract and task order
           performance requirements are included, similar to the performance goals and measures to
           be used for GSA associates in these roles.

           Persons with Security Responsibilities
           Contracting Officers (COs) and Contracting Officer's Technical Representatives
           (COTRs) are not identified in Chapter 2 of the GSA IT Security Policy as individuals
           with security roles and responsibilities. The policy does state in Chapter 1 that "GSA
           system program managers and contracting officers shall ensure that the appropriate
           security requirements of this order are put on contract for all IT systems designed,
           developed, implemented, and operated by a contractor on behalf of the government."
           NIST SP 800-35, Guide To Information Technology Security Services,2 which provides
           guidance for contracting officials, includes COs and COTRs as persons with roles and
           responsibilities when contracting for security services. With current Personnel Security
           Requirements Division procedures, COTRs initiate contractor background investigations,
           and take action in the case of an unfavorable adjudication on contractors supporting GSA
           systems. Contractor services were employed for nine of the ten systems we reviewed this
           year and we identified multiple instances where COTRs had not requested all required
           background investigations. Adding COs and COTRs to the IT Security Policy, Chapter 2
           Roles and Responsibilities, would clarify IT security responsibilities. In addition, the


2
    NIST SP 800-35 - Guide To Information Technology Security Services, October 2003.
                                                        6
           Contractor Operations section of GSA's IT Security Policy should be clarified to require
           that task orders, as well as contracts, include appropriate security requirements.

           Background Investigation Roles and Responsibilities
           GSA’s IT Security Policy is not consistent with other Agency directives for ensuring that
           background investigations are completed on persons supporting GSA systems. The
           policy directs that background investigations be conducted in accordance with Standard
           Operating Procedures for HSPD-12 and the GSA Suitability and Personnel Security
           Handbook.3 However, the Agency IT Security Policy is not consistent with processes in
           place for contractor background investigations. GSA's IT Security Policy states that
           ISSOs are to assist the Authorizing Official and Data Owner in ensuring that required
           background investigations are completed. In contrast, the GSA Personnel Security
           Requirements Division staff, responsible for adjudicating background investigations,
           informed us that responsibility for requesting contractor background investigations is
           with the COTR, not the officials identified in the IT Security Policy. Clarification of the
           Agency IT Security Policy would facilitate improved implementation of contractor
           background investigations where COTRs are responsible for requests.

           Information System Security Officer and Information System Security Manager
           Assignments
           An additional factor contributing to security weaknesses was the assignment of an ISSO
           with a lack of IT knowledge and experience commensurate with duties of an ISSO. For a
           contractor provided E-Government call center system that processes, stores, and transmits
           private citizen's names, addresses, and credit card numbers, the ISSO did not ensure that
           contractor personnel were following GSA IT Security Policy and procedures.
           Specifically, the ISSO did not provide the contractor with the Agency's IT Security
           Policy and guidance, and when we inquired about IT security for the system, the ISSO
           directed us to contact the contractor’s security manager. Under the current Agency IT
           Security Program, ISSOs and ISSMs are assigned without defined minimum
           qualifications or approval by the SAISO.

           Segregation of Security Responsibilities
           In some instances, security roles are not properly segregated, as required by OMB, and as
           intended by the IT Security Policy. Out of 79 GSA systems, six systems had one
           individual performing both the ISSO and ISSM roles. Of the six systems, two Regional
           general support systems had the same individual acting as ISSM, ISSO, and System
           Program/Project Manager. Security responsibilities are routinely “other duties as
           assigned,” secondary to the individual’s primary job responsibilities. For a system in our
           sample where security documentation was not comprehensive and the POA&M was
           missing identified security weaknesses, a contributing factor was a lack of segregation of
           ISSO, ISSM, and System Program/Project Manager responsibilities.

           OMB Circular A-1234 has specifically directed that within the Agency's structure,
           management should clearly: "define areas of authority and responsibility; appropriately
           delegate the authority and responsibility throughout the agency; establish a suitable
           hierarchy for reporting; support appropriate human capital policies for hiring, training,

3
    GSA Order ADM P 9732.1C, Suitability and Personnel Security, January 15, 1998.
4
    OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.
                                                        7
          evaluating, counseling, advancing, compensating and disciplining personnel; and uphold
          the need for personnel to possess and maintain the proper knowledge and skills to
          perform their assigned duties as well as understand the importance of maintaining
          effective internal control within the organization." Control activities include policies,
          procedures and mechanisms in place to help ensure that agency objectives are met, such
          as proper segregation of duties. Internal control also needs to be in place over
          information systems, and due to the rapid changes in information technology, controls
          must also adjust to remain effective. As such, an individual should not be assigned to
          the roles of ISSO and ISSM for a single GSA system.

To strengthen and clarify GSA’s IT Security Policy, the GSA-OCIO should develop procedural
guidance necessary to set and monitor IT security performance goals and measures for system
security officials. COs and COTRs should be added to the list of persons with IT security
responsibilities, and roles and responsibilities for the background investigation process should be
clarified. Further, the GSA-OCIO should collaborate with the GSA Personnel Security
Requirements Division to identify and implement controls that effectively ensure all requisite
contractor background investigations are initiated. The Contractor Operations section of GSA
IT Security Policy should be clarified to require that task orders, as well as contracts, include
appropriate security requirements. Additionally, the GSA-OCIO should require the SAISO to
review and approve ISSO and ISSM assignments and require that one individual cannot act as
both the ISSO and ISSM for a single system.

GSA Would Benefit From A More Proactive Approach for Addressing Emerging Risks

During this year’s audit fieldwork, we identified emerging risks that have not yet been addressed
in specific GSA IT security procedural and technical/hardening guides. A more proactive
approach would benefit system owners in securing web applications and Voice over Internet
Protocol (VoIP) implementations by addressing risks associated with these technologies. While
the IT Security Subcommittee of the Information Technology Architecture Planning Committee
(ITAPC) meets regularly, the subcommittee has not been proactive in addressing emerging risks
such as those identified in this year's FISMA security reviews.

          Web Application Security
          The importance of web application security is increasing as applications move to this
          expanded form of connectivity. Over 70 percent of attacks against web sites or web
          applications come at the application layer, not the network or system layer. The Open
          Web Application Security Project (OWASP) reports that, "Insecure software has its
          consequences, but insecure web applications, exposed to millions of users through the
          Internet are a growing concern."5 Attacks on web applications, both internal and
          external, bypass traditional network firewall and password access controls and may not
          be monitored. Attackers are increasingly targeting web applications, which have
          traditionally not been secured as well as network perimeters. Web based phishing attacks
          attempting to trick users into disclosing personal and proprietary information are also
          exploiting the inherent public trust in .gov web sites.

          In May 2006, we issued an Alert Report to address two significant areas of risk with web
          applications that needed to be more comprehensively addressed in GSA’s IT Security

5
    OWASP, The Ten Most Critical Web Application Security Vulnerabilities, 2004 Update.
                                                        8
        Policy, C&A guidance, and monitoring practices. Vulnerabilities were found with web
        application security due to insufficient input validation and unsecured web servers
        running outdated and unsupported operating system software. Unmanaged vulnerabilities
        have the potential to harm the public's trust and increase resistance to sharing information
        with GSA and other government agencies. The Agency updated C&A procedural
        guidance to include testing for web application vulnerabilities, performed an assessment
        of 18 Internet-facing web applications, and trained ten GSA personnel on web application
        security. The GSA-OCIO also awarded a web application security scanning contract in
        July 2006 and implemented a requirement that all new GSA web applications must be
        tested for vulnerabilities before being published on the Internet.

        Voice over Internet Protocol Security
        VoIP, the transmission of voice over packet-switched IP networks, is one of the most
        important emerging trends in telecommunications. As with many new technologies,
        VoIP introduces both security risks and opportunities. VoIP has a very different
        architecture than traditional circuit-based telephony, and these differences result in
        significant security issues. Lower cost and greater flexibility are among the promises of
        VoIP for the enterprise, but VoIP should not be installed without careful consideration of
        the security problems introduced.6

        In 2005 and 2006, we found Regional deployments of VoIP susceptible to multiple
        critical system and architectural vulnerabilities that would have benefited from guidance
        on implementing these VoIP deployments. The Agency IT Security Policy directs GSA
        employees and contractors to use NIST SP 800-58 as a guide, but does not provide
        vendor-specific implementation configuration settings and guidance necessary to
        properly secure these deployments. Additionally, several risks identified in NIST SP
        800-58 were not addressed as part of the implementation process for either system.

GSA systems have shown improvements, as evidenced by a decrease in the number of critical
vulnerabilities we identified from 140 in the ten systems sampled in 2005 to 19 in ten different
systems sampled in 2006. However, the GSA-OCIO should develop technical/hardening guides
for newly identified emerging risk areas to benefit system developers and system owners.
Additionally, the ITAPC IT Security Subcommittee should regularly take actions to address risks
with emerging technologies.




6
 National Institute of Standards and Technology. NIST Special Publication 800-58, Security Considerations for
Voice over IP Systems, January 2005.
                                                     9
                                  RECOMMENDATIONS

To strengthen GSA's IT Security Program and improve the security of information technology
assets, we recommend that the GSA, Chief Information Officer take actions to:

   1. Implement improved accountability for associates and contractors supporting GSA's IT
      Security Program by taking actions to:
         a. Engage the Administrator’s support for developing standardized performance
             goals and measures for Information System Security Officers and Information
             System Security Managers across GSA Service, Staff, and Regional Offices, with
             periodic assessments of performance by the Senior Agency Information System
             Officer for use in performance evaluations.
         b. Require that contracts and task orders for Information System Security Officer
             and Information System Security Manager services, in support of GSA systems,
             include performance requirements similar to goals and measures being established
             for GSA associates in these roles.
         c. Collaborate with the GSA Personnel Security Requirements Division to identify
             and implement procedures and controls that effectively ensure prompt initiation of
             contractor background investigations for individuals accessing GSA systems and
             data.

   2. Strengthen GSA's IT Security Policy and procedures in the following areas:
          a. Develop guidance and directives necessary to establish and monitor IT security
             performance goals and measures for Information System Security Officers and
             Information System Security Managers.
          b. Require Senior Agency Information Security Officer approval of Information
             System Security Officer and Information System Security Manager assignments.
          c. Add the roles of Contracting Officer and Contracting Officer’s Technical
             Representative as persons with IT security responsibilities, and clarify the
             responsibilities of systems security officials in the background investigation
             process.
          d. Segregate IT security roles and responsibilities by requiring that one individual
             cannot be both the Information System Security Officer and Information System
             Security Manager for a single system.
          e. Clarify the Contractor Operations section of the policy to require that task orders,
             as well as contracts, include appropriate security requirements.

   3. Ensure that the Information Technology Architecture Planning Committee, IT Security
      Subcommittee regularly takes actions to address risks with emerging technologies.

   4. Develop and implement technical/hardening guides for securing web applications and
      Voice over Internet Protocol.




                                              10
                               MANAGEMENT COMMENTS

A copy of the GSA-CIO’s comments will be included in their entirety as Appendix D.

                                  INTERNAL CONTROLS

As discussed in the Objectives, Scope, and Methodology section of this report, the objective of
our review was to assess the effectiveness of GSA's IT Security Program and practices for select
systems in meeting FISMA requirements. While this audit included a review of management,
operational, and technical controls for 10 GSA systems, we did not test all system controls across
the agency. The Results of Audit and Recommendations sections of this report state in detail the
need to strengthen specific managerial, operational, and technical controls with the IT Security
Program.




                                               11
                    FY 2006 OFFICE OF INSPECTOR GENERAL
                    FISMA REVIEW OF GSA’S INFORMATION
                      TECHNOLOGY SECURITY PROGRAM
                      REPORT NUMBER A060123/O/T/F06018

          GSA, OFFICE OF INSPECTOR GENERAL RESPONSES TO
     THE OFFICE OF MANAGEMENT AND BUDGET’S FISMA QUESTIONS




The EXCEL Workbook displayed on the following pages is transmitted in a separate file
        using the format directed by the Office of Management and Budget.




                                        A-1
                                                                                                      Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                                            Agency Name:




                                                                                                                           Question 1 and 2



1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency. By FIPS 199 risk
impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).



              To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
              1) Continue to use NIST Special Publication 800-26, or,
              2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


              Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the requirements of law. Self
              reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems which
have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.




                                                                                                                           Question 1                                                                                Question 2
                                                                                                  a.                           b.                            c.                              a.                         b.                           c.
                                                                                            Agency Systems             Contractor Systems          Total Number of Systems         Number of systems         Number of systems for         Number of systems for
                                                                                                                                                                                 certified and accredited    which security controls      which contingency plans
                                                                                                                                                                                                              have been tested and          have been tested in
                                                                                                                                                                                                            evaluated in the last year   accordance with policy and
                                                                                                                                                                                                                                                 guidance




                                                              FIPS 199 Risk Impact        Total          Number         Total        Number                        Number         Total       Percent of      Total       Percent of
Bureau Name                                                           Level              Number         Reviewed       Number       Reviewed       Total Number   Reviewed       Number         Total        Number         Total    Total Number Percent of Total
Public Buildings Service (PBS)                                   High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                        10                2                                         10              2            2       100.0%              2       100.0%            2         100.0%
                                                                 Low                                                                                          0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                           10                2            0              0             10              2            2       100.0%              2       100.0%            2         100.0%
Federal Supply Service (FSS)                                     High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         2                             9              1             11              1            1       100.0%              1       100.0%            0            0.0%
                                                                 Low                              1                             3                             4              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            3                0          12               1             15              1            1       100.0%              1       100.0%            0            0.0%
Federal Technology Service (FTS)                                 High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         2                             6              1              8              1            1       100.0%              1       100.0%            1         100.0%
                                                                 Low                              2                             2                             4              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            4                0            8              1             12              1            1       100.0%              1       100.0%            1         100.0%
Office of the Chief Acquisition Officer (OCAO)                   High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                                                       4                             4              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Low                              1                             3                             4              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            1                0            7              0              8              0            0    #DIV/0!                0    #DIV/0!              0     #DIV/0!
Office of Governmentwide Policy (OGP)                            High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         1                                                           1              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Low                              3                             2                             5              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            4                0            2              0              6              0            0    #DIV/0!                0    #DIV/0!              0     #DIV/0!
Office of Chief Information Officer (CIO)                        High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         2                1                                          2              1            1       100.0%              1       100.0%            1         100.0%
                                                                 Low                                                                                          0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            2                1            0              0              2              1            1       100.0%              1       100.0%            1         100.0%
Office of Chief Finance Officer (CFO)                            High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         1                             3              1              4              1            1       100.0%              1       100.0%            1         100.0%
                                                                 Low                                                                                          0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            1                0            3              1              4              1            1       100.0%              1       100.0%            1         100.0%
Office of Chief People Officer (CPO)                             High                                                                                         0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Moderate                         1                             1                             2              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Low                                                                                          0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                                 Not Categorized                                                                              0              0                 #DIV/0!                     #DIV/0!                    #DIV/0!
                                                             Sub-total                            1                0            1              0             2               0            0    #DIV/0!                0     #DIV/0!                  0      #DIV/0!
Office of the Inspector General (OIG)                            High                                                                                        0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                Moderate                          1                                                          1               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                Low                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                Not Categorized                                                                              0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                             Sub-total                            1                0            0              0             1               0            0    #DIV/0!                0     #DIV/0!                  0      #DIV/0!
Office of General Counsel (OGC)                                  High                                                                                        0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Moderate                                                                                    0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Low                              1                                                          1               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Not Categorized                                                                             0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                             Sub-total                            1                0            0              0             1               0            0    #DIV/0!                0     #DIV/0!                  0      #DIV/0!
Board of Contract Appeals (BCA)                                  High                                                                                        0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Moderate                                                                                    0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Low                              1                                                          1               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Not Categorized                                                                             0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                             Sub-total                            1                0            0              0             1               0            0    #DIV/0!                0     #DIV/0!                  0      #DIV/0!
Office of Citizen Services and Communications (OCSC)             High                                                                                        0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Moderate                                                                                    0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Low                                                            2              1             2               1            1       100.0%              1        100.0%                0            0.0%
                                                                Not Categorized                                                                              0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                             Sub-total                            0                0            2              1             2               1            1       100.0%              1        100.0%                0            0.0%
Region 1                                                         High                                                                                        0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                                                 Moderate                         1                                                          1               0                 #DIV/0!                      #DIV/0!                         #DIV/0!




                                                                                                                                    A-2
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 2                                                       High                                                                                       0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 3                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 4                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          2                                                         2             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            2               0           0              0              2             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 5                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          2               2                                         2             2             2         100.0%              2       100.0%              2          100.0%
                                                               Low                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            2               2           0              0              2             2             2         100.0%              2       100.0%              2          100.0%
Region 6                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          2               1                                         2             1             1         100.0%              1       100.0%              0            0.0%
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            2               1           0              0              2             1             1         100.0%              1       100.0%              0            0.0%
Region 7                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 8                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          2                                                         2             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            2               0           0              0              2             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 9                                                      High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Region 10                                                     High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
National Capitol Region (NCR)                                 High                                                                                        0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Moderate                          1                                                         1             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Low                                                                                         0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                              Not Categorized                                                                             0             0                    #DIV/0!                     #DIV/0!                       #DIV/0!
                                                           Sub-total                            1               0           0              0              1             0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
Agency Totals                                                  High                             0               0           0              0             0              0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!
                                                               Moderate                        35               6          23              3            58              9             9         100.0%              9       100.0%              7           77.8%
                                                               Low                              9               0          12              1            21              1             1         100.0%              1       100.0%              0            0.0%
                                                               Not Categorized                  0               0           0              0             0              0             0      #DIV/0!                0    #DIV/0!                0      #DIV/0!

                                                           Total                               44               6          35              4            79             10           10          100.0%              10      100.0%              7           70.0%
                                                                                                                            Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.


                                                           The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                                           agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                                           national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 and/or NIST 800-53
                                                           requirements by a contractor or other organization is not sufficient, however, self-reporting by another Federal agency may
                                                           be sufficient.

                           3.a.                            Response Categories:                                                                                                           - Almost Always, for example, approximately 96-100% of the time
                                                                - Rarely, for example, approximately 0-50% of the time
                                                                - Sometimes, for example, approximately 51-70% of the time
                                                                - Frequently, for example, approximately 71-80% of the time
                                                                - Mostly, for example, approximately 81-95% of the time
                                                                - Almost Always, for example, approximately 96-100% of the time




                                                           The agency has developed an inventory of major information systems (including major national security systems) operated
                                                           by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                                           systems or networks, including those not operated by or under the control of the agency.

                                                           Response Categories:
                          3.b.1.                                - Approximately 0-50% complete                                                                                                 - Approximately 96-100% complete
                                                                - Approximately 51-70% complete
                                                                - Approximately 71-80% complete
                                                                - Approximately 81-95% complete
                                                                - Approximately 96-100% complete



                                                                                                                                                                                          Missing Agency Systems:




                          3.b.2.                           If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the systems that are missing
                                                           from the inventory.




                                                                                                                                 A-3
                                                                                                                                                                                        Missing Contractor Systems:




                            3.c.                             The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                    Yes



                                                             The OIG generally agrees with the CIO on the number of information systems
                            3.d.                             used or operated by a contractor of the agency or other organization on behalf of       the agency.                                                             Yes




                            3.e.                             The agency inventory is maintained and updated at least annually.                                                                                               Yes




                            3.f.                             The agency has completed system e-authentication risk assessments.                                                                                              Yes


                                                                                                                                Question 4




Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the following statements reflect
the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time




                                                             The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                            4.a.                                                                                                                                                         - Almost Always, for example, approximately 96-100% of the time
                                                             systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.




                                                             When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                            4.b.                                                                                                                                                         - Frequently, for example, approximately 71-80% of the time
                                                             implement, and manage POA&Ms for their system(s).



                                                             Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                            4.c.                                                                                                                                                         - Almost Always, for example, approximately 96-100% of the time
                                                             progress.



                            4.d.                             CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                - Almost Always, for example, approximately 96-100% of the time


                            4.e.                             OIG findings are incorporated into the POA&M process.                                                                       - Almost Always, for example, approximately 96-100% of the time


                                                             POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                            4.f.                                                                                                                                                         - Almost Always, for example, approximately 96-100% of the time
                                                             timely manner and receive appropriate resources

Comments: The General Services Administration, Chief Information Officer has developed an agencywide POA&M process, all ten systems reviewed have a POA&M, and the majority of known IT security weaknesses were being managed in the POA&Ms.
However, there was inconsistent implementation of the process. The POA&M for one Regional general support system did not include multiple weaknesses identified during the C&A process. The POA&M for a component of a larger major application did not
include weaknesses identified for the component during vulnerability scanning.

                                                                                                                                Question 5




OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and standards. Agencies shall
follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004),
“Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans .




                                                             Assess the overall quality of the Department's certification and accreditation process.

                                                             Response Categories:
                                                                  - Excellent
                                                                  - Good                                                                                                                 - Satisfactory
                                                                  - Satisfactory
                                                                  - Poor
                                                                  - Failing



Comments: The overall OIG assessment of "Satisfactory" resulted from system owners' inconsistent implementation of the GSA CIO's Certification and Accreditation (C&A) process developed in accordance with NIST SP 800-37 and FIPS 199. One contractor
system was not given GSA procedural guides when developing C&A documentation and therefore the C&A documentation did not conform to GSA requirements. Security documentation for one general support system was not updated to address the reviewed
component.




                                                                                                                                     A-4
                                                                   Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                        Agency Name:


                                                                                         Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                              Yes
                        Yes or No.

                        Comments: GSA's IT Security Policy requires all agency systems to use GSA technical guidelines, NIST guidelines, or industry best practices for purposes of
                        security configuration and hardening.


                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.




                                                                                                                            Approximate the extent of implementation of the security
                                                                                                                            configuration policy on the systems running the software.

                                                                                                                            Response choices include:
                                                                                                                            - Rarely, or, on approximately 0-50% of the
                                                                                                                              systems running this software
           Product                                                                                                          - Sometimes, or on approximately 51-70% of
                                                                                                                              the systems running this software
                                                                                                                            - Frequently, or on approximately 71-80% of
                                                                   Addressed in agencywide                                    the systems running this software
                                                                           policy?             Do any agency systems        - Mostly, or on approximately 81-95% of the
                                                                                                 run this software?           systems running this software
                                                                                                                            - Almost Always, or on approximately 96-100% of the
                                                                             Yes, No,                                       systems running this software
                                                                              or N/A.                  Yes or No.
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows XP Professional
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows NT
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2000 Professional
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Mostly, or on approximately 81-95% of the systems
              Windows 2000 Server
                                                                                 Yes                      Yes               running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2003 Server
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Mostly, or on approximately 81-95% of the systems
              Solaris
                                                                                 Yes                      Yes               running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              HP-UX
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Sometimes, or on approximately 51-70% of the systems
              Linux
                                                                                 Yes                      Yes               running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Cisco Router IOS
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Rarely, or, on approximately 0-50% of the systems
              Oracle
                                                                                 Yes                      Yes               running this software
              Other. Specify:
Comments: We performed vulnerability scanning on ten select systems including four contractor systems and six components of larger systems to determine the
degree of implementation of hardening guides. Audit determinations regarding the extent of hardening guide implementations are based on a sample of ten select
systems and may differ from agency responses due to different sample sizes. One contractor system had a Linux device with critical-level vulnerabilities indicating
that it had not been appropriately hardened. Review of Oracle database settings for two contractor systems showed numerous inconsistencies with the Agency's
recommended settings, indicating that the Oracle devices had not been hardened in accordance with GSA's IT security policy.




                                                                                         Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
       7.a.             incidents internally.                                                                                                            Yes
                        Yes or No.




                                                                                              A-5
                  The agency follows documented policies and procedures for external reporting to law
      7.b.        enforcement authorities.                                                                                          Yes
                  Yes or No.
                  The agency follows defined procedures for reporting to the United States Computer
      7.c.        Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                        Yes
                  Yes or No.
Comments: The GSA-CIO has developed a procedural guide that outlines the policies and procedures for incident handling and reporting across the agency.
Incident handling and reporting were generally consistent with this guide for the ten systems we reviewed.


                                                                            Question 8

                  Has the agency ensured security training and awareness of all employees, including
                  contractors and those employees with significant IT security responsibilities?

                  Response Choices include:
                  - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                                         - Almost Always, or approximately 96-100% of employees have
        8          - Sometimes, or approximately 51-70% of employees have sufficient training
                                                                                                        sufficient training
                   - Frequently, or approximately 71-80% of employees have sufficient training
                   - Mostly, or approximately 81-95% of employees have sufficient training
                   - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                            Question 9



                  Does the agency explain policies regarding peer-to-peer file sharing in IT security
        9         awareness training, ethics training, or any other agency wide training?                                           Yes
                  Yes or No.




                                                                                  A-6
                           FY 2006 OFFICE OF INSPECTOR GENERAL
                           FISMA REVIEW OF GSA’S INFORMATION
                             TECHNOLOGY SECURITY PROGRAM
                             REPORT NUMBER A060123/O/T/F06018

 TEN SYSTEMS REVIEWED BY THE OFFICE OF INSPECTOR GENERAL IN 2006

     System                   Owner                                          Description
                                                   e-Buy is GSA's latest acquisition tool and is designed primarily for
                                                   the acquisition of services and/or large purchases. e-Buy is a
      e-Buy
                                                   system that allows agency buyers to post Requests For Quotes for a
(Component of the      Federal Supply Service
                                                   specified period of time for a wide range of products and services
 GSA Advantage!                (FSS)
                                                   offered from Multiple Award Schedule contract vendors. e-Buy is
Major Application)
                                                   a component of a contractor supported system categorized as
                                                   moderate risk.
                                                   USA Services/National Contact Center (NCC) responds to public
                                                   inquiries seeking information on a wide range of government
                      Office of Citizen Services   programs. The Government contracted out the operations of the
USA Services/NCC
                        and Communications         NCC in 1990. In FY2003, the NCC responded to over 1.5 million
(Major Application)
                               (OCSC)              inquiries and took over 246,000 orders for consumer publications.
                                                   USA Services/NCC is a contractor supported system categorized as
                                                   low risk.
   Data Gateway                                    Data Gateway establishes standard tools and allows for consistency
  (Component of                                    and accuracy in data by enabling the electronic transfer of key
                      Public Buildings Service
  Realty Services                                  business information among a number of disparate systems. Data
                               (PBS)
  Enclave Major                                    Gateway is a component of an Agency system categorized as
   Application)                                    moderate risk.
                                                   Under the FEDdesk suite of services, GSA offers Federal agencies
     FEDdesk
                      Office of Chief Financial    fully automated and paperless transactions for time and attendance.
(Component of PAR
                           Officer (CFO)           FEDdesk is a component of a contractor supported system
 Major Application)
                                                   categorized as moderate risk.
  Region 6 VoIP                                    The Region 6 VoIP system resides on the Region 6 PBS LAN in
  (Component of                                    Kansas City, MO and provides voice service and voice mail.
Region 6 PBS LAN       Heartland Region (R6)       Region 6 VoIP is a component of an Agency system categorized as
 General Support                                   moderate risk.
     System)
                                                   The Region 5 PBS LAN system provides both onsite and remote
                                                   network access to the users of the Great Lakes Region
                                                   Organizational Unit of the GSA Active Domain that enables them
Region 5 PBS LAN
                                                   to perform their business line missions and support their customers
 (General Support     Great Lakes Region (R5)
                                                   by accessing, viewing, creating and modifying Regional and
     System)
                                                   National non-classified data through local and Nationally
                                                   maintained applications. Region 5 PBS LAN is an Agency system
                                                   categorized as moderate risk.
                                                   The purpose of the Region 5 FTS LAN system is to provide both
                                                   onsite and remote network access to the users of the Great Lakes
Region 5 FTS LAN                                   Region Domain that enables them to perform their business line
 (General Support     Great Lakes Region (R5)      missions and support their customers by accessing, viewing,
     System)                                       creating and modifying Regional and National non-classified data
                                                   through local and Nationally maintained applications. Region 5
                                                   FTS LAN is an Agency system categorized as moderate risk.
                                                   The RAS is GSA’s private remote access network infrastructure
        RAS                                        offering remote network connectivity to all GSA associates and
  (Component of                                    partners nationwide. The RAS Infrastructure supports several
                          Office of the Chief
     Enterprise                                    remote access technologies including: 56kbps Dial-up, Integrated
                         Information Officer
   Infrastructure                                  Services Digital Network (ISDN) at 128kbps, High Speed Access
                                (CIO)
Operations General                                 using Virtual Private Network (VPN), and GSA private Enterprise
 Support System)                                   Digital Service Link (eDSL). RAS is a component of an Agency
                                                   system categorized as moderate risk.

                                                       B-1
     System                   Owner                                         Description
                                                  NSOBS/TOPS automates the local service and long distance
                                                  business processes including ordering, billing and reconciliation of
                                                  telecommunications services. The benefits of this project include
                        Federal Technology        minimization of paperwork, processing speed, and ensuring
  NSOBS/TOPS
                              Service             customer satisfaction.      It supports all Government agency
(Major Application)
                               (FTS)              customers with telecommunications inventory management, on-
                                                  line ordering, and on-line access to account information.
                                                  NSOBS/TOPS is a contractor supported system categorized as
                                                  moderate risk.
     OA Tool                                      The Occupancy Agreement Tool (OA Tool) is used by Realty
  (Component of                                   Specialists responsible for obtaining space for PBS customers. The
                      Public Buildings Services
  Realty Services                                 OA Tool interacts with STAR to provide readiness, occupancy
                               (PBS)
  Enclave Major                                   agreement, and billing information. OA Tool is a component of an
   Application)                                   Agency system categorized as moderate risk.




                                                      B-2
                            FY 2006 OFFICE OF INSPECTOR GENERAL
                            FISMA REVIEW OF GSA’S INFORMATION
                              TECHNOLOGY SECURITY PROGRAM
                              REPORT NUMBER A060123/O/T/F06018

          STATUS OF CONTRACTOR BACKGROUND INVESTIGATIONS FOR
                             TEN SYSTEMS


                                                         GSA         GSA
                                         GSA          Required     Required
                                       Required        NACIC        NACIC
                           Number       NACIC        Background   Background
       System                Of       Background Investigations Investigations
                          Contractor Investigations Requested But     Not
                                                 7
                          Personnel   Completed     Not Completed  Requested
         e-Buy8                  94                   12                      82                      0

    USA Services/NCC             5                    0                       0                       5


      Data Gateway               5                    1                       2                       2


        FEDdesk                  7                    6                       1                       0

     Region 6 VoIP9              0                    0                       0                       0

    Region 5 PBS LAN             22                   7                       15                      0


    Region 5 FTS LAN             4                    0                       3                       1


          RAS                    10                   4                       6                       0

      NSOBS/TOPS                 7                    7                       0                       0

        OA Tool                  23                   9                       6                       8




7
  Column includes completed NACIC (National Agency Check with Inquiries Credit), DOD Top Secret Clearance,
MBI, and LBI investigations.
8
  The ISSO for e-Buy did not identify contractor support personnel for one company supporting the system, and did
not confirm whether NACIC background investigations had been requested.
9
  Region 6 VoIP was the only system in our sample not supported by contractor personnel.
                                                      C-1
   FY 2006 OFFICE OF INSPECTOR GENERAL
   FISMA REVIEW OF GSA’S INFORMATION
     TECHNOLOGY SECURITY PROGRAM
     REPORT NUMBER A060123/O/T/F06018

GSA-CIO’S RESPONSE TO DRAFT AUDIT REPORT




                   D-1
                                  FY 2006 OFFICE OF INSPECTOR GENERAL
                                  FISMA REVIEW OF GSA’S INFORMATION
                                    TECHNOLOGY SECURITY PROGRAM
                                    REPORT NUMBER A060123/O/T/F06018

                                               REPORT DISTRIBUTION

                                                                                                                              Copies

Office of the Chief Information Officer (I)..................................................................................3

Office of the Chief Financial Officer (B) ....................................................................................2

                                                                                                               Electronic Copies

Office of the CFO Chief Information Officer (BD).....................................................................1

Office of the FAS Chief Information Officer (TH) .....................................................................1

Office of the PBS Chief Information Officer (PGA)...................................................................1

Office of the CSC Chief Information Officer (XCI) ...................................................................1

Great Lakes Region 5 (5A) ..........................................................................................................1

Heartland Region 6 (6A)..............................................................................................................1

Audit Follow-up and Evaluation Branch (BECA).......................................................................1

Assistant Inspector General for Auditing (JA) ............................................................................2

Audit Operations Staff (JAO) ......................................................................................................1

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ..................1

Deputy Assistant Inspector General for Real Property Audits (JA-R) ........................................1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ...........................................1

Regional Inspector General for Auditing (JA-5 and JA-6)..........................................................2

Administration and Data Systems Staff (JAS).............................................................................1

Assistant Inspector General for Investigations (JI)......................................................................1

Regional Inspector General for Investigations (JI-5 and JI-6).....................................................2




                                                                  E-1
